 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


THE UNIVERSITY OF NORTH CAROLINA
 AT CHAPEL HILL DID NOT ALWAYS
 CLAIM SELECTED COSTS CHARGED
   DIRECTLY TO DEPARTMENT OF
  HEALTH AND HUMAN SERVICES
  AWARDS IN ACCORDANCE WITH
     FEDERAL REQUIREMENTS

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                      Lori S. Pilcher
                                                Regional Inspector General
                                                    for Audit Services

                                                         June 2014
                                                       A-04-13-01024
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 The University of North Carolina at Chapel Hill did not always claim selected costs
 charged directly to HHS awards in accordance with Federal requirements. The University
 claimed $352,843 in unallowable transactions charged directly to HHS awards.

WHY WE DID THIS REVIEW

The U.S. Department of Health and Human Services (HHS) is the largest grant-making
organization and the third largest contracting agency in the Federal Government. The HHS
Office of Inspector General has identified grants management and administration of contract
funds as a top management and performance challenge and, in recent years, has identified
significant findings related to the management of HHS awards at colleges and universities.

The University of North Carolina at Chapel Hill (the University) is a recipient of a relatively
large amount of HHS funding. For Federal fiscal years 2010 and 2011, the University ranked
ninth in HHS award dollars received among U.S. institutes of higher education.

Our objective was to determine whether the University claimed selected costs charged directly to
HHS awards in accordance with Federal requirements.

BACKGROUND

University of North Carolina at Chapel Hill

The University is a public institution located in Chapel Hill, North Carolina. From July 1, 2009,
through June 30, 2011 (audit period), the University claimed reimbursement for approximately
$956.3 million in costs incurred on 1,447 grants, contracts, and other agreements (awards) from
HHS.

Federal Requirements

By accepting HHS awards, the University agreed to comply with regulations governing the use
of Federal funds and to ensure that costs charged to those awards are allowable under the cost
principles established in 2 CFR part 220 (Office of Management and Budget (OMB) Circular
A-21). These cost principles require that, to be allowable, costs must be reasonable, be allocable,
be adequately documented, and conform to any exclusions or limitations set forth in the cost
principles or sponsored agreements.

Award Administration

The University’s Office of Sponsored Research (OSR) negotiates and administers awards on
behalf of the University. Some of OSR’s responsibilities include monitoring institutional
compliance with terms and conditions of Federal awards, pre-auditing expenditures for
sponsored programs, and other billing and financial reporting activities.


UNC-Chapel Hill Did Not Always Claim Costs in Accordance With Federal Requirements (A-04-13-01024)   i
Principal Investigators (PIs) are responsible for administrative, technical, and fiscal management
of sponsored projects. The PI’s administrative responsibilities include authorizing that all
expenses charged to projects are allowable, allocable, and reasonable in accordance with OMB
Circular A-21 and other applicable guidelines.

WHAT WE FOUND

The University did not always claim selected costs charged directly to HHS awards in
accordance with Federal requirements. Of the 163 transactions totaling $8,496,835 that we
reviewed, 155 transactions totaling $8,160,961 were allowable, but 8 transactions totaling
$335,874 were either not allowable or partially allowable. In addition, the University claimed
unallowable facilities and administrative costs totaling $16,969 that were related to the
unallowable transactions.

The University claimed unallowable costs under HHS awards because PIs and OSR staff did not
comply with University policies and procedures for adequately documenting cost transfers,
adequately reviewing costs charged to awards, and assuring that costs are treated consistently.

As a result, the University did not always administer its HHS awards cost effectively or in
compliance with Federal requirements.

RECOMMENDATIONS

We recommend that the University:

    •   refund to the Federal Government the $352,843 in unallowable costs and

    •   enhance oversight of charges to Federal awards to ensure consistent compliance with
        Federal requirements.


UNIVERSITY OF NORTH CAROLINA AT CHAPEL HILL COMMENTS

In written comments on our draft report, University officials concurred with our
recommendations and described the corrective actions that they were taking.




UNC-Chapel Hill Did Not Always Claim Costs in Accordance With Federal Requirements (A-04-13-01024)   ii
                                                     TABLE OF CONTENTS

INTRODUCTION ........................................................................................................................ 1

          Why We Did This Review ................................................................................................ 1

          Objective ........................................................................................................................... 1

          Background ....................................................................................................................... 1
                University of North Carolina at Chapel Hill ......................................................... 1
                Federal Requirements ........................................................................................... 1
                Award Administration .......................................................................................... 1

          How We Conducted This Review..................................................................................... 2

FINDINGS             ............................................................................................................................... 2

          The University Did Not Always Claim Costs in Accordance with
           Federal Requirements ..................................................................................................... 3
                 Costs Were Not Adequately Documented ............................................................ 3
                 Costs Were Not Reasonable.................................................................................. 4
                 Costs Were Not Treated Consistently ................................................................... 4

          The University Did Not Follow Policies and Procedures ................................................. 5

          Award Administration Not Always Cost Effective .......................................................... 5

RECOMMENDATIONS .............................................................................................................. 5

UNIVERSITY OF NORTH CAROLINA AT CHAPEL HILL COMMENTS ........................... 6

APPENDIXES

          A: Audit Scope and Methodology ................................................................................... 7

          B: Federal Requirements.................................................................................................. 9

          C: Related Office of Inspector General Reports ............................................................ 10

          D: University of North Carolina at Chapel Hill Comments .......................................... 11




UNC-Chapel Hill Did Not Always Claim Costs in Accordance With Federal Requirements (A-04-13-01024)                                                       iii
                                          INTRODUCTION

WHY WE DID THIS REVIEW

The U.S. Department of Health and Human Services (HHS) is the largest grant-making
organization and the third largest contracting agency in the Federal Government. The HHS
Office of Inspector General (OIG) has identified grants management and administration of
contract funds as a top management and performance challenge and, in recent years, has
identified significant findings related to the management of HHS awards at colleges and
universities.

The University of North Carolina at Chapel Hill (the University) is a recipient of a relatively
large amount of HHS funding. For Federal fiscal years 2010 and 2011, the University ranked
ninth in HHS award dollars received among U.S. institutes of higher education.

OBJECTIVE

Our objective was to determine whether the University claimed selected costs charged directly to
HHS awards in accordance with Federal requirements.

BACKGROUND

University of North Carolina at Chapel Hill

The University is a public institution located in Chapel Hill, North Carolina. From July 1, 2009,
through June 30, 2011, the University claimed reimbursement for approximately $956.3 million
in costs incurred on 1,447 grants, contracts, and other agreements (awards) from HHS.

Federal Requirements

By accepting HHS awards, the University agreed to comply with regulations governing the use
of Federal funds and to ensure that costs charged to those awards are allowable under the cost
principles established in 2 CFR part 220 (Office of Management and Budget (OMB) Circular
A-21). These cost principles require that, to be allowable, costs must be reasonable, be allocable,
be adequately documented, and conform to any exclusions or limitations set forth in the cost
principles or sponsored agreements.

Award Administration

The University’s Office of Sponsored Research (OSR) negotiates and administers awards on
behalf of the University. Some of OSR’s responsibilities include monitoring institutional
compliance with terms and conditions of Federal awards, pre-auditing expenditures for
sponsored programs, and other billing and financial reporting activities.

The University assigns other responsibilities to its Principal Investigators (PIs) including
administrative, technical, and fiscal management of awards. As part of these responsibilities, PIs



UNC-Chapel Hill Did Not Always Claim Costs in Accordance With Federal Requirements (A-04-13-01024)   1
authorize that all expenses charged to awards are allowable, allocable, and reasonable in
accordance with OMB Circular A-21 and other applicable guidelines.

HOW WE CONDUCTED THIS REVIEW

Our audit covered approximately $112.2 million in transactions claimed for reimbursement for
the period July 1, 2009, through June 30, 2011 (audit period). We limited the audit to grants,
contracts, and other agreements between the University and HHS. We did not evaluate
transactions charged to the University’s agreements with other Federal departments and
agencies.

We selected a random sample 1 of 163 transactions totaling $8,496,835 for review. We evaluated
the allowability of the selected transactions by reviewing documentation including contract
proposals and grant application packages, notices of award and contracts, invoices, payment
vouchers, purchase orders, and other documentation the University provided in support of the
transactions. We also conducted interviews with University employees from OSR and selected
PIs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B lists the
Federal requirements related to awards, and Appendix C contains a list of related OIG reports.

                                                     FINDINGS

The University did not always claim selected costs charged directly to HHS awards in
accordance with Federal requirements. Of the 163 transactions totaling $8,496,835 that we
reviewed, 155 transactions totaling $8,160,961 were allowable, but 8 transactions 2 totaling
$335,874 were either not allowable or partially allowable. In addition, the University claimed
unallowable facilities and administrative (F&A) costs totaling $16,969 that were related to the
unallowable transactions.

The University claimed unallowable costs under HHS awards because PIs and OSR staff did not
comply with University policies and procedures for adequately documenting cost transfers,
adequately reviewing costs charged to awards, and assuring that costs are treated consistently.



1
 Per OIG policy, we did not use the results of the random sample to create an estimate. Instead, we only discuss the
specific items in error in this report.
2
    For two transactions, only a portion of the transaction was unallowable.



UNC-Chapel Hill Did Not Always Claim Costs in Accordance With Federal Requirements (A-04-13-01024)                 2
As a result, the University did not always administer its HHS awards cost effectively or in
compliance with Federal requirements.

THE UNIVERSITY DID NOT ALWAYS CLAIM COSTS IN ACCORDANCE WITH
FEDERAL REQUIREMENTS

Of the $335,874 in costs we identified as unallowable, the University claimed:

    •   $298,275 in costs that were not adequately documented,

    •   $34,557 in costs that were not reasonable, and

    •   $3,042 in costs that were not treated consistently.

In addition, the University claimed unallowable F&A costs totaling $16,969 that were associated
with the unallowable costs.

Costs Were Not Adequately Documented

Federal regulations require that university accounting practices provide for adequate
documentation to support costs charged to awards (2 CFR part 220, Appendix A, § A.2.e).

Scientific Equipment, Supplies, and Services

The University claimed the costs of research-related equipment, supplies, and services totaling
$284,865 that it had transferred from University fund accounts (or other accounts) to HHS award
accounts without documenting the basis for the amounts transferred, the reason the transfers
were necessary, or why transfers occurred several months after the University initially recorded
the charges.

For example, the University claimed $265,000 for scientific equipment that it initially charged to
a University trust fund account 3 but transferred the amount to an HHS grant 10 months later.
The documentation supporting the transfer was limited to a note that stated that, after review, the
University determined that a portion of the equipment should be charged to the grant. The
University did not document the allocation basis for the amount transferred and did not
document why it took so long to transfer the costs.

The University also claimed $10,301 for other scientific equipment, $7,694 for research animal
care, and $1,870 for lab supplies transferred from University fund accounts (or other accounts) to
HHS award accounts without adequately documenting the nature or justification of the transfers.



3
  The total cost of the equipment was $778,075; however, the University only charged $265,000 of this amount to
the HHS award.



UNC-Chapel Hill Did Not Always Claim Costs in Accordance With Federal Requirements (A-04-13-01024)                3
Foreign Housing and Subsistence

The University claimed $13,410 under a foreign award for the costs of a housing rental and an
expatriate allowance with documentation that did not support that costs were incurred. The
University’s documentation of the housing rental was limited to a letter requesting rent payment
for a 6-month period and a memo approving payment for an expatriate allowance.

The University told us the letter reflected a housing valuation used to determine a reimbursement
rate for renting the property. However, the University also stated that the University employee
requesting reimbursement for the rental owned the property. Thus, the documentation of the
housing rental did not reflect costs incurred.

In addition, the University stated that the expatriate allowance was to cover the employee’s
utilities and incidentals; however, the documentation did not support the year in which the
allowance applied (the approval shown was for a prior year).

Costs Were Not Reasonable

Federal regulations state that, for costs to be allowable, they must be reasonable. In determining
reasonableness, major factors include whether or not the cost is necessary for the operation of the
institution or the performance of the sponsored agreement and whether or not the individuals
concerned acted with due prudence (2 CFR part 220, Appendix A § C.2 - 3).

The University claimed $34,557 in various costs charged to a foreign award that were duplicate
costs and were therefore not reasonable and allowable.

For example, the University claimed $19,667 for audit fees to meet accountability status
requirements with foreign regulatory bodies; however, the University claimed two charges for
the fees: one for $19,667 and another for $6,667 (reflecting an allocated portion of the total
fees). The University agreed that it should have only claimed the $6,667 and told us it would
credit the award for the $19,667.

Similarly, the University claimed $5,429 for foreign housing, $5,303 for equipment insurance,
and $4,158 for scientific equipment that was unallowable because the University had already
claimed these costs under other transactions. The University agreed that the amounts were
duplicate charges that should not have been claimed.

Costs Were Not Treated Consistently

Federal regulations require that costs be treated consistently as either direct or F&A to be
allowable under Federal awards. If a university treats a particular type of cost as a direct cost of
awards, all costs incurred for the same purpose in like circumstances must be treated as direct
costs of all activities of the university (2 CFR part 220, Appendix A § D.1).

The University claimed $3,042 for the costs of a laptop computer and printer cartridges that had
not been treated consistently as F&A costs; thus, the costs were unallowable. According to



UNC-Chapel Hill Did Not Always Claim Costs in Accordance With Federal Requirements (A-04-13-01024)     4
University policies and procedures, the University generally treated computer hardware as an
F&A cost unless an awarding agency approved in advance the direct charging of the cost.
Likewise, the University classified general administrative supplies, such as printer cartridges, as
F&A costs. The University had not obtained prior approval for charging these costs as direct
costs and had not otherwise justified this inconsistent treatment.

THE UNIVERSITY DID NOT FOLLOW POLICIES AND PROCEDURES

The University claimed unallowable costs because PIs and OSR staff did not comply with
University policies and procedures for adequately documenting cost transfers, adequately
reviewing costs charged to awards, and assuring that costs are treated consistently.

According to University policies and procedures, cost transfers are only allowed when initiated
in a timely fashion, fully justified, and documented. Cost transfers that are not completed within
90 days require additional documentation and an explanation why errors were not corrected
sooner. For the unallowable transactions we identified, the University had not provided the type
of justifications described in its policies and procedures.

The University’s policies and procedures also state that PIs and OSR are responsible for the
administration and financial management of awards. As part of these responsibilities, PIs must
review award expenditures monthly and authorize that direct charges to awards are in accordance
with OMB Circular A-21. OSR confirms the accuracy and appropriateness of award transactions
and oversees financial compliance related to award terms and conditions. For the unallowable
transactions we identified, PIs and OSR had not sufficiently reviewed the transactions to ensure
claimed costs were adequately documented, were treated consistently, and had not been
previously claimed.

AWARD ADMINISTRATION NOT ALWAYS COST EFFECTIVE

By claiming unallowable costs to HHS awards, the University did not always administer its HHS
awards cost effectively or in compliance with Federal requirements. Federal grantor agencies
expect grantees to ensure accountability in award administration. With respect to the awards
charged with unallowable costs, the University did not meet this expectation.

                                      RECOMMENDATIONS

We recommend that the University:

    •   refund to the Federal Government the $352,843 in unallowable costs and

    •   enhance oversight of charges to Federal awards to ensure consistent compliance with
        Federal requirements.




UNC-Chapel Hill Did Not Always Claim Costs in Accordance With Federal Requirements (A-04-13-01024)    5
        UNIVERSITY OF NORTH CAROLINA AT CHAPEL HILL COMMENTS

In written comments on our draft report, University officials concurred with our
recommendations and described the corrective actions that they were taking.

The University’s comments are included in Appendix D.




UNC-Chapel Hill Did Not Always Claim Costs in Accordance With Federal Requirements (A-04-13-01024)   6
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered approximately $112.2 million in transactions claimed for reimbursement for
the period July 1, 2009, through June 30, 2011 (audit period). We limited the audit to grants,
contracts, and other agreements between the University and HHS. We did not evaluate
transactions charged to the University’s agreements with other Federal departments and
agencies.

We limited our assessment of internal controls to the University’s policies and procedures for
charging costs to Federal awards. We conducted our fieldwork at the University’s offices in
Chapel Hill, North Carolina, from April through August 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal requirements;

    •   reviewed the University’s policies and procedures for charging costs to Federal awards;

    •   reviewed the University’s Cost Accounting Standards Board Disclosure Statement
        (DS-2); 4

    •   reviewed the University’s HHS-approved rate agreement for the F&A cost rates
        applicable to the audit period;

    •   reviewed a schedule of transactions provided by the University showing all costs it
        charged directly to HHS awards during the audit period;

    •   reconciled the schedule of transactions provided by the University to audited expenditure
        data provided by the North Carolina State Auditor’s Office to assess the reliability of the
        data;

    •   obtained an attestation from the University stating that the schedule of transactions was
        current and complete;




4
 Educational institutions that receive aggregate sponsored agreements totaling $25 million or more are required to
disclose their cost accounting practices by filing a DS-2. The University has submitted a DS-2 to HHS, Division of
Cost Allocation.



UNC-Chapel Hill Did Not Always Claim Costs in Accordance With Federal Requirements (A-04-13-01024)                   7
       •   reviewed the University’s account codes and identified accounts that we considered to be
           at high risk of noncompliance; 5

       •   removed from the approximately $109.2 million in transactions claimed for
           reimbursement during the audit period offsetting transactions, 6 low-dollar transactions
           (less than $10), and negative transactions that did not have a corresponding positive
           transaction;

       •   selected a random sample 7 of 163 transactions from the remaining $112,239,649 in
           transactions; 8

       •   determined the allowability of the selected transactions by reviewing:

               o contract proposals and grant applications 9 under which the transactions occurred;

               o the terms and conditions of the awards related to the transactions; and

               o documentation such as invoices, vouchers, purchase orders, and other
                 documentation supporting the transactions;

       •   interviewed University and HHS awarding agency officials responsible for the awards
           related to the selected transactions;

       •   computed the F&A costs related to the unallowable transactions; and

       •   discussed our findings with University officials on February 20, 2014.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.


5
 We considered accounts with costs that Federal requirements and the University normally treat as indirect costs to
be at greater risk of being improperly charged directly to awards.
6
 Offsetting transactions are expenditures charged to an award that were subsequently adjusted by transferring the
costs to another funding source(s) or otherwise zeroed out.
7
 Per OIG policy, we did not use the results of the random sample to create an estimate. Instead, we only discuss the
specific items in error in this report.
8
 The dollar value of the remaining transactions is greater than the dollar value of the transactions claimed during the
audit period because many of the transactions that we removed from the original list were negative.
9
    The University submitted proposals for Federal contracts and applications for grants and cooperative agreements.



UNC-Chapel Hill Did Not Always Claim Costs in Accordance With Federal Requirements (A-04-13-01024)                     8
                         APPENDIX B: FEDERAL REQUIREMENTS

FEDERAL REGULATIONS

The HHS grant administration rules require recipients of grant awards to comply with regulations
governing the use of Federal funds and to ensure that costs charged to those awards were
allowable under the applicable cost principles (45 CFR § 74.27(a)).

The cost principles for educational institutions are established in 2 CFR part 220, Appendix A
(the Circular). These cost principles require that the accounting practices of universities
provide for adequate documentation to support costs charged to sponsored agreements (the
Circular § A.2.e.).

The cost principles also require that, to be allowable, costs must be reasonable, be allocable, be
treated consistently, and conform to any exclusions or limitations set forth in the cost principles
or sponsored agreements (the Circular § C.2). Whether or not a cost is necessary for the
operation of the institution or the performance of a sponsored agreement and whether or not
individuals concerned acted with due prudence are major considerations in determining cost
reasonableness. (the Circular § C.3).

In addition, the cost principles state that costs incurred for the same purpose in like circumstances
must be treated consistently as either direct or F&A costs (the Circular § D.1).




UNC-Chapel Hill Did Not Always Claim Costs in Accordance With Federal Requirements (A-04-13-01024)      9
       APPENDIX C: RELATED OFFICE OF INSPECTOR GENERAL REPORTS


                                                                            Report              Date
                          Report Title                                     Number              Issued
The University of Colorado Denver Did Not Always Claim                  A-07-11-06013          6/2013
Selected Costs Charged Directly to Department of Health and
Human Services Awards in Accordance With Federal
Regulations
Thomas Jefferson University Generally Claimed Selected Costs            A-03-11-03300          6/2013
Charged Directly to Department of Health and Human Services
Awards in Accordance With Federal Regulations
Review of Select Expenditures Claimed by The Research                   A-02-11-02008          8/2012
Foundation of the State University of New York, State
University of New York at Stony Brook
Florida State University Did Not Always Claim Selected Costs            A-04-11-01095          7/2012
Charged Directly to Department of Health and Human Services
Awards in Accordance With Federal Regulations and National
Institutes of Health Guidelines
Review of Administrative and Clerical Costs at The Ohio State           A-05-11-00030          12/2011
University for the Period July 1, 2008, Through June 30, 2010
Review of Select Expenditures Claimed by The Research                   A-02-11-02000          10/2011
Foundation of the State University of New York, State
University of New York at Albany
Review of Administrative and Clerical Costs at Dartmouth                A-01-11-01500          8/2011
College for Fiscal Years 2009 Through 2010
Review of Administrative and Clerical Costs at Duke University          A-04-05-01014          1/2009
for the Period October 1, 2002, Through September 30, 2004




UNC-Chapel Hill Did Not Always Claim Costs in Accordance With Federal Requirements (A-04-13-01024)      10
         APPENDIX D: UNIVERSITY OF NORTH CAROLINA AT CHAPEL HILL 

                                COMMENTS 


       UNC
        RESEARCH
                                                                    THE UNIVERSITY
                                                                    of NORTH CAROLINA 

                                                                    a/   CHAPEL HILL 



                                                                   OFFICE OF THE     VICE CHANCELLOR FOR RESEARCH


                                                                   312 SOUTH BUILDING            T 919.962.1319
May 5, 2014                                                        CAMPUS BOX 4000               F 9 19.962 .1476
                                                                   CHAPEL HILL, NC 27599-4000    http://research. unc.edu

LoriS. Pilcher
Department of Health and Human Services
Office of Inspector General
Office of Audit Services , Region IV
61 Forsyth Street, SW, Suite 3T41
Atlanta, Georgia 30303

Re: Report Number: A-04-13-01 024

Dear Ms. Pilcher:

This letter provides the University of North Carolina at Chapel Hill's ("University") response to Report
Number: A-04-13-01 024 titled "The University of North Carolina at Chapel Hill Did Not Always Claim
Selected Costs Charged Directly to Department of Health and Human Services Awards in Accordance with
Federal Requirements." The University takes seriously its obligations to be an effective steward of
federal funds and the opportunity to enhance its policies and procedures related to sponsored research
compliance.

Recommendation #1

HHS recommends that the University refund $352 ,843 of unallowable costs to the Federal Government.

University Response: The University concurs with this recommendation and will refund the costs
identified in the audit as unallowable. In those instances where the costs are associated with an active
award, the University will reverse the costs off of the award . In those instances where the award is
closed, the University will follow the sponsors' processes for returning such funds .

Recommendation #2

HHS recommends that the University enhance oversight of charges to Federal Awards to ensure
consistent compliance with Federal requirements .

University Response: The University concurs with this finding and is undertaking the following
corrective actions:

    1. 	 The University will communicate with each of the Principal Investigators and Departmental 

        Administrators connected to transactions questioned in the report regarding the responsibility 

        of the Principal Investigator and Departmental Administrator to monitor transactions to ensure 

        costs are appropriately incurred on sponsored projects. 





UNC-Chapel Hill Did Not Always Claim Costs in Accordance With Federal Requirements (A-04-1 3-01024)           11
        2. 	 The Office of Sponsored Research (OSR) will provide additional training sessions for its staff to
             reiterate the importance of ensuring the proper documentation and justification is provided
            prior to approving costs and document the types of supporting documentation that are
            appropriate.   In addition, in instances where non-compliance is identified, OSR will remind
            departments of applicable policy requirements.
        3. 	 The University is revising its Cost Transfer policy to more clearly specify the timeline for initiating
            cost transfers , acceptable criteria for making a cost transfer and guidelines on suitable
            explanations in support of a cost transfer. Once complete, this policy will be widely
            disseminated to campus and an informational session will be offered by the Office of Sponsored
            Research to respond to any questions.
        4. 	 The University is developing additional guidance on the criteria for determining the treatment of
             computers and hand-held devices as direct versus indirect costs to sponsored projects. Once
            complete, the guidance will be widely disseminated to campus and additional training will be
            offered by the Office of Sponsored Research .
        5. 	 The University will update its Cost Accounting Standards Exemption procedure to provide
            additional clarification on when prior approval is required. Once complete, this procedure will
            be communicated to campus and an informational session will be offered by the Office of
             Sponsored Research to respond to any questions.
        6. 	 The University will provide additional guidance to campus regarding the appropriate 

             methodologies that should be used for allocating costs to sponsored research awards. 

        7. 	 The University will be holding a full day symposium in July 2014 that will be offered to Research
             Administrators and will cover a wide range of compliance topics such as cost transfers, cost
           accounting standards and roles and responsibilities. An emphasis will be placed on reviewing
           federal compliance requirements and university policies and procedures .
        8. 	 The University has purchased an audit software package to assist with monitoring certain
            categories of expenses.

On behalf of the University, I would like to thank Mr. Ben Johnson and Ms. Stacy Mullins for their
professionalism and cooperation during the audit process .

Please do not hesitate to contact me if you have any questions regarding the University's' response.


Sincerely,

Barbara Entwisle, PhD
Vice Chancellor for Research

cc: 	      Carol Felt, Chancellor, University of North Carolina at Chapel Hill
           Robin Cyr, Director, Office of Sponsored Research
           Phyllis Petree, Director of Internal Audit




 UNC-Chapel Hill Did Not Always Claim Costs in Accordance With Federal Requirements (A-04-13-01024)               12
